           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF DELAWARE
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2001


   JUNE 2002       A-77-02-00013




MANAGEMENT ADVISORY
      REPORT
                                           Mission
We improve SSA programs and operations and protect them against fraud, waste, and abuse by
conducting independent and objective audits, evaluations, and investigations. We provide timely,
useful, and reliable information and advice to Administration officials, the Congress, and the
public.

                                          Authority
The Inspector General Act created independent audit and investigative units, called the Office of
Inspector General (OIG). The mission of the OIG, as spelled out in the Act, is to:

  m    Conduct and supervise independent and objective audits and investigations relating to
       agency programs and operations.
  m    Promote economy, effectiveness, and efficiency within the agency.
  m    Prevent and detect fraud, waste, and abuse in agency programs and operations.
  m    Review and make recommendations regarding existing and proposed legislation and
       regulations relating to agency programs and operations.
  m    Keep the agency head and the Congress fully and currently informed of problems in
       agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m    Independence to determine what reviews to perform.
  m    Access to all information necessary for the reviews.
  m    Authority to publish findings and recommendations based on the reviews.


                                            Vision
By conducting independent and objective audits, investigations, and evaluations, we are agents
of positive change striving for continuous improvement in the Social Security Administration's
programs, operations, and management and in our own office.
                                SOCIAL SECURITY
MEMORANDUM

Date:   June 24, 2002

To:     Ellen Baese
        Director
        Management Analysis and Audit Program Support Staff

From:   Assistant Inspector General
         for Audit

Subject: Management  Advisory Report on the Single Audit of the State of Delaware for the
        Fiscal Year Ended June 30, 2001 (A-77-02-00013)

        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Delaware for the Fiscal Year ended June 30, 2001. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.
        KPMG LLP, Certified Public Accountants, performed the audit. Results of the desk
        review conducted by the Department of Health and Human Services (HHS) have not
        been received. We will notify you when the results are received if HHS determines the
        audit did not meet Federal requirements. In reporting the results of the single audit, we
        relied entirely on the internal control and compliance work performed by KPMG LLP and
        the reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Delaware Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The Delaware
        Department of Labor (DoL), Division of Vocational Rehabilitation Services and
        Employment Training, is the Delaware DDS’s parent agency.

        The single audit reported that DoL did not draw funds in accordance with the funding
        techniques specified in the Cash Management Improvement Act (CMIA) agreement.
        Specifically, DoL did not (1) draw funds based on the average clearance method, and
        (2) monitor cash balances. The State’s corrective action plan indicated DoL is now
        following the CMIA agreement and will monitor cash balances more closely (see
        Appendix A). We recommend that SSA ensure DoL is following the terms of the CMIA
        agreement to draw and monitor funds for DDS expenditures.
Page 2 - Ellen Baese


Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.




                                             Steven L. Schaeffer

Attachments
                                                                                    Appendix A
                                                                                    Page 1 of 3


UNITED STATES DEPARTMENT OF LABOR

DEPARTMENT OF LABOR

CASH MANAGEMENT

0l -6 FINDING - An examination of cash management at the Department of Labor, Divisions
of Vocational Rehabilitation Services and Employment and Training, resulted in a finding of
noncompliance with the agreement between the State of Delaware and the United States
Secretary of the Treasury (the Agreement) for the following programs:

       CFDA
       17.250          Job Training Partnership Act
       17.255          Workforce Investment Act
       84.126          Rehabilitation Services - Vocational Rehabilitation Grants to States
       96.001          Social Security Disability Insurance

Because of past difficulties complying with the Agreement, the Department of Labor draws down
federal funds based on the outstanding balance of payment vouchers in the State's general ledger
system, Delaware Financial Management System, DFMS. The agreement requires that
administrative costs to run federally funded programs should be drawn down based on the
"Average Clearance" method. The Average Clearance method requires calculating the number of
days checks are outstanding before clearing the bank, the weighted check amount, and the
dollar-weighted average days for clearance to determine the funds required. As a result, the
divisions above are not in compliance with the Agreement. There are no questioned costs related
to the noncompliance with the Agreement.

                                RECOMMENDATION

WE RECOMMENDED THAT the Department of Labor adhere to all terms of agreements
entered into with the United States Treasury and the Cash Management Improvement Act.

AUDITEE'S PLAN FOR CORRECTIVE ACTION

"The Division of Employment and Training has been using the Average Clearance method since
May 2000. The Division of Vocational Rehabilitation is waiting for the updated clearance
patterns from the Budget Office and will be using that method upon receipt. " Any questions
should be addressed to Ms. Kris Brooks, Controller, Department of Labor.
                                                                                           Appendix A
                                                                                           Page 2 of 3



UNITED STATES SOCIAL SECURITY ADMINISTRATION

DEPARTMENT OF LABOR

CASH MANAGEMENT

01-60 FINDING - An examination of cash management at the Department of Labor, Division of
Vocational Rehabilitation, CFDA 96.001 (Social Security Disability Insurance) resulted in a finding
of noncompliance with the requirement to monitor daily cash balances to minimize positive
balances. Federal regulations require that recipients of Federal Awards draw down funds only as
needed and that positive balances cannot exceed three days or the State must pay interest to the
Federal Agency for the positive balance. The Division's cash log shows an average positive cash
balance of $15,000 for a period of six days due to monitoring procedures not functioning as
designed; therefore, it does not comply with the Federal requirements.

                                     RECOMMENDATION

  WE RECOMMENDED THAT the Department of Labor closely monitor its daily cash balances
  to avoid maintaining positive cash balances as required by the Cash Management Improvement
  Act.

  AUDITEE'S PLAN FOR CORRECTIVE ACTION

  "The Division of Vocational Rehabilitation agrees to monitor the cash balances more closely so
  as not to drawn down more funds than needed or to have a positive balance longer than the three
  days required by federal regulations. " Any questions should be addressed to Ms. Kris Brooks,
  Controller, Department of Labor.

  SOCIAL SECURITY - DISABILITY INSURANCE - CFDA 96.001
    CASH MANAGEMENT

  01-61 FINDING - An agreed-upon procedures engagement was performed at the Department
  of Labor (DOL) to determine the State's compliance with the Cash Management Improvement
  Act Agreement of 1990 as amended between the State and the United States Department of
  Treasury. Through inquiry of the DOL management, drawdowns on the Social Security
  -Disability Insurance program are performed based on a daily review of the Delaware Financial
  Management System (DFMS) "APSF" screen for any positive balances. This is not in
  accordance with the average method agreed to in the Cash Management Improvement Act
  Amendment 99-1. Positive balances represent federal funds drawdown but not yet expended;
  interest could be owed to the federal government if funds were not disbursed within three
  business days. The date of the drawdown could not be determined. The 25 days listed below
  were selected and examined on the DFMS "APSF" screen for that day for all appropriations
  within the Social Security - Disability Insurance program to ensure there were no positive
  balances. Through examination of the aforementioned screens, there were no positive balances
  discovered. The days selected were: July11, August 2, September 15, October 4, November 8,
                                                                                Appendix A
                                                                                Page 3 of 3


December 6 and 15, 2000, January 2, 22 and 26, February 5, 19 and 21, March 1, 12 and 23,
April 6, 16 and 19, May 1, 2, and 8 and June 5, 13, and 15, 2001.


                                  RECOMMENDATION
WE RECOMMENDED THAT the Department of Labor (DOL) should review the drawdown
methods for each grant included in the Cash Management Improvement Act of 1990 to ensure
compliance with the method agreed to in the signed Act.


AUDITEE'S PLAN FOR CORRECTIVE ACTION

 "The Office of the Budget has scheduled a review session with DOL personnel who
oversee federal program funds management. The objective is to have a comprehensive
discussion of CMIA and at that time to identify any programs) which may have
experienced problems with the funding technique identified in the Agreement, and which
may need a funding technique change reflected in the Agreement. " Any questions should be
addressed to Mr. Thomas A. Kirkpatrick, Chief of Financial Management Services, Office of
the Budget.
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
